        REPORT ON THE
CENTRAL ARTERY/TUNNEL PROJECT
 MAY 2007 FINANCE PLAN UPDATE
     Federal Highway Administration

      Report Number: MH-2008-048
      Date Issued: March 31, 2008
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Audit of Central                                            Date:    March 31, 2008
           Artery/Tunnel Project May 2007 Finance Plan
           Update
           Federal Highway Administration
           Report Number MH-2008-048
  From:                                                                                   Reply to
                                                                                          Attn. of:   JA-40
           Rebecca Anne Batts
            Assistant Inspector General
             for Highway and Transit Audits
    To:     Acting Federal Highway Administrator

           This report presents the results of our audit of the May 2007 Finance Plan Update
           (Plan) for the Central Artery/Tunnel Project (Project). 1 The purpose of this Plan is
           to provide senior program and oversight officials with information to track the
           Project’s estimated cost and the financing and cash flows needed to meet Project
           obligations. In addition, the intent of the Plan is to describe risks and mitigation
           actions as well as to disclose factors that could impact Project completion.

           In October 2000, Congress limited the total Federal contribution for this Project at
           $8.549 billion.2 It also directed the U.S. Secretary of Transportation to withhold
           obligations of Federal funds and approval of the Project’s finance plan until the
           Office of Inspector General (OIG) determined that the annual finance plan updates
           were consistent with Federal Highway Administration (FHWA) Financial Plans
           Guidance (FHWA Guidance). 3

           In 1984, the Massachusetts Highway Department initiated the Project and
           construction began in 1991. When initially approved in 1985, the Project was
           estimated to cost $2.6 billion. Designed to relieve congestion through Boston, the
           Project replaced an elevated expressway with an expanded expressway, consisting
           of 7.3 miles of tunnels, surface highways, and bridges.             In 1997, the
           Commonwealth of Massachusetts (Commonwealth) enacted legislation that

           1
               Officially titled, “Cost/Schedule Update of the Central Artery/Tunnel Project,” and submitted by the Massachusetts
               Turnpike Authority.
           2
               Department of Transportation and Related Agencies Appropriations Act of 2001, Pub. L. No. 106-346.
           3
               FHWA Financial Plan Guidance issued in May 2000, most recently revised in January 2007.
                                                                                                                   2


transferred management of the Project to the Massachusetts Turnpike Authority
(MTA). According to MTA, the Project is 99 percent complete with all major
ramps, roadways, and streets open for public use.

The latest Plan was submitted to FHWA for its review and approval in May 2007.
The Plan forecast a total Project cost of $14.798 billion. That amount represented
a $173 million increase over the forecast Project cost of $14.625 billion that was
reported in the 2004 Plan. 4 Of the $14.798 billion, $128 million in Federal funds
remained unobligated, as of January 2008. 5 The FHWA Division Office and the
FHWA Major Projects Team concurrently reviewed the 2007 Plan. Our review
was designed to evaluate the reasonableness of the cost projections, the viability of
the identified funding sources, and the likelihood that the funding commitments
would provide sufficient resources to complete the Project as planned.

Our objective in reviewing the 2007 Plan was to determine whether it complied
with the FHWA Guidance, which requires that the Plan: (1) provide a Project cost
estimate based on all known and reasonably expected costs, (2) identify
appropriate and available funding sources and cash flows sufficient to meet the
total estimated cost, and (3) disclose other issues affecting the Project. Exhibit A
describes our scope and methodology.


RESULTS IN BRIEF
The MTA’s Plan generally complied with the FHWA Guidance, except that it
should be adjusted to correct understated insurance cost and an overstated Federal
funding cap, which resulted in a shortfall in funding. Consequently, MTA will
need to identify an additional $37.7 million in non-Federal funding necessary to
complete the Project. In addition, the Plan’s omission of some of the necessary
disclosures and assessments must be corrected to achieve full compliance with the
FHWA Guidance.

Specifically, the Plan:

      ¾ understated the insurance cost by $8.8 million. The MTA based the Plan
        on the assumption that savings would result from the transfer of the
        insurance liability in December 2007, an event that did not occur. This
        increased the total Project cost to $14.807 billion.



4
    We suspended our review of the 2004 Finance Plan Update because of the uncertainty associated with the costs
    arising from the I-90 tunnel ceiling panel incident.
5
    The remaining $128 million in unobligated Federal funds reflects the adjusted Federal obligations of $7.031 billion
    less $6.903 billion in obligated funds.
                                                                                                                          3


      ¾ overstated the remaining Federal funding available to the Project by
        $28.9 million, because it did not reflect investment income earned on
        Federal funds.

Further, the Plan did not:

      ¾ identify the funding sources that would be used to resolve outstanding
        contractor claims, backcharges, and liquidated damages in the event that
        they are settled at the historical rate, instead of the more optimistic
        estimates used to prepare the Plan.

      ¾ disclose the Commonwealth’s commitment to fund future transportation
        projects.

In addition, the Plan should be updated to describe whether the Commonwealth
will contribute $210 million in additional funding, as specified in its letter
agreement, 6 even if the MTA is unable to reimburse this amount. The letter
agreement between the Commonwealth and the MTA called for the MTA to
reimburse the Commonwealth from cost recoveries; however, a recent lawsuit
settlement 7 requires that most of the cost recoveries be placed in a separate trust
fund and used for future repairs and maintenance. Thus, these cost recoveries may
not be available to the MTA for reimbursement to the Commonwealth.

If the Commonwealth agrees to contribute the funds without reimbursement, the
Commonwealth Treasurer will need to provide an assessment of the availability of
funds in the Transportation Infrastructure Fund (TIF), 8 as has been done for prior
plans. In contrast, if the Commonwealth will not contribute the funds unless the
MTA can provide reimbursement, the MTA will need to identify an alternative
funding source.

To achieve full compliance with FHWA Guidance, the MTA must amend the Plan
to correct these issues and resubmit required certifications reflecting the changes.


6
    In May 2007, the Commonwealth of Massachusetts Executive Office of Transportation (EOT) and the Executive
    Office for Administration and Finance (A&F) signed a letter agreement with the MTA. The Commonwealth of
    Massachusetts agreed to contribute an additional $210 million with the understanding that it could recoup the
    contribution when the MTA recovers funds from contractor errors, insurance proceeds, or other credits due the
    Project.
7
    On January 23, 2008, the U.S. Attorney’s Office in Boston and the Attorney General’s Office for the Commonwealth
    settled the lawsuit with Bechtel/Parsons Brinkerhoff. In the settlement Bechtel/Parson Brinkerhoff agreed to pay
    over $407 million to resolve its criminal and civil liabilities associated with the collapse of part of the I-90 connector
    tunnel ceiling and defects in the slurry walls of the Tip O’Neil tunnel. In addition, 24 section design consultants who
    also worked on various parts of the Project agreed to pay an additional $51 million to resolve certain cost recovery
    issues associated with the design of the Project. The Central Artery/Tunnel Repair and Maintenance Trust Fund will
    receive $414.9 million, the Federal government will receive $23.5 million, with others receiving $19.8 million.
8
    The official title of the TIF is the Central Artery and Statewide Road and Bridge Infrastructure Fund.
                                                                                                                     4


In summary, we recommend that FHWA advise the MTA to amend the Finance
Plan to increase insurance cost, reduce the Federal funding cap, disclose the details
of the non-Federal funding sources, disclose the Commonwealth’s prior
commitment to fund future transit projects, describe the Commonwealth’s
commitment to advance State funding, and provide the Treasurer’s assessment of
current TIF balances and future projections for completing the Project. The full
list of recommendations are on pages 8 and 9.

We discussed the preliminary results of our audit and the audit recommendations
with FHWA, Commonwealth, and MTA officials on October 4, October 18, and
November 28, 2007. These officials expressed general agreement. Additionally,
the Commonwealth and the MTA agreed to amend the Plan in accordance with
our recommendations. As of the date of this report, we have not received the
necessary amendments from the Commonwealth and the MTA.

In its March 28, 2008, written response to our report, FHWA concurred with our
seven recommendations and provided an action plan to address each of the
recommendations. FHWA’s comments and our responses are fully discussed on
pages 9 through 10.

FINDINGS
As addressed in the detailed findings below, the MTA’s Plan generally complied
with the FHWA Guidance, except that it did not fully: provide a cost estimate
based on all known and reasonably expected costs, identify appropriate and
available funding sources and cash flows sufficient to meet the total estimated
cost, and disclose other issues affecting the project.


Insurance Expenses Were Understated by $8.8 Million
The MTA developed its May 2007 Plan under the assumption that savings would
result from the transfer of the insurance liability in December 2007, an event that
did not occur. If MTA had been able to negotiate the transfer with the current
insurance underwriter as planned, doing so would have resulted in an $8.8 million
savings to the Project. 9

Based on the guidelines presented by the American Institute of Certified Public
Accountants (AICPA), 10 financial forecasts should be prepared in good faith and
assumptions should be reasonable and suitably supported. MTA has assumed the

9
     The Plan refers to a “Loss Portfolio Transfer,” which allows the Project to eliminate its future liability generated
     under the self-insured portion of its workers' compensation program by paying an insurance underwriter
     $46.2 million to assume the $55 million future liability, for a savings of $8.8 million.
10
     American Institute of Certified Public Accountants’ publication titled, “Guide for Prospective Financial
     Information,” included as Attachment A in the FHWA Guidance.
                                                                                                                  5


transfer of the insurance liability with varying amounts of costs savings since the
2003 Finance Plan Update. As of February 2008, the transfer had not occurred.

Because of the historical delays encountered in transferring the insurance liability,
the continuous changes in the estimated value, and the fact that the December
2007 transfer did not occur as planned, the MTA should not assume that the cost
savings will be achieved. Accordingly, the Plan’s insurance cost should be
increased by $8.8 million, which results in a total Project cost of $14.807 billion.


Available Federal Funding Was Overstated by $28.9 Million
The Plan overstated the remaining Federal funding available to the Project,
because the MTA did not adjust the amount of remaining Federal funds to reflect
$28.9 million of investment income earned on Federal monies. The investment
income earned on Federal funds represents an additional contribution of Federal
funds. Consequently, the balance of Federal funding available, as shown in the
Plan, should have been reduced by $28.9 million to ensure that the Project did not
receive Federal funds in excess of the statutory cap. 11

In 2007, the Commonwealth determined that $58 million in residual market
credit, 12 including the $28.9 million Federal share of interest income, was due the
Project. The Plan described the receipt of these funds, but the $28.9 million
Federal share was not reflected in the Project cash flow tables, as required. The
FHWA Guidance requires that the Plan provide a description of the financial
resources to be used in meeting Project cost. Accordingly, the Plan must reflect
this amount.

In 2002, we reported that the Project received additional unplanned funds through
the Owner Controlled Insurance Program trust’s investment of the Project’s excess
Federal funds. 13 At that time, we determined that $76 million of the investment
income represented an additional Federal contribution to the Project. Therefore,
the MTA was required to reduce the Federal cap by that amount. Similarly, the
2007 Plan must be amended to reflect the $28.9 million in excess funds as an
additional Federal contribution to be applied to the Federal cap.



11
     The original Federal funding cap of $8.549 billion was set in 2000. This $8.549 billion cap in the FHWA financial
     management information system was reduced by $76 million in 2001 to reflect excess Owner Controlled Insurance
     Program (OCIP) investment income. The latest revised Federal funding cap should be $8.444 billion, after removing
     the $28.9 million Federal share of investment income associated with the residual market credit.
12
     Residual market credit is the net amount due the OCIP trust from distributions made to the insurer by the
     Massachusetts Worker's Compensation Assigned Risk Pool, based on the Pool's operating income from the inception
     of the program.
13
     OIG Report Number IN-2002-086, “October 2001 Finance Plan for the Central Artery/Tunnel Project,” March 11,
     2002. OIG reports and testimonies can be found on our website: www.oig.dot.gov.
                                                                                  6


Costs Exceed Funding by $37.7 Million
The Plan must be adjusted to reflect both an $8.8 million insurance expense
understatement and the $28.9 million overstatement of the available Federal
funding, which together resulted in a $37.7 million shortfall; that is, costs exceed
available funding by $37.7 million.

The Commonwealth refinanced some of the long-term debt associated with the
Project, which resulted in an $11 million savings. Although officials informed us
of a proposal to use the $11 million to reduce the shortfall, it is not identified in
the Plan. If the Commonwealth goes forward with the use of the savings to reduce
the shortfall, the MTA should clearly identify this use in the Plan. In any event,
the MTA must adjust the Plan to show how it will fund the entire shortfall.


Funding Source To Cover Higher-Than-Budgeted Claim Settlements
Was Not Disclosed
The Plan’s estimate of funds needed to resolve outstanding contractor claims,
backcharges, and liquidated damages was optimistic when compared to the
Project’s historical settlement rate. Specifically, the Plan funded $95 million and
disclosed that the MTA might be liable for an additional $160 million.

The Plan identified funding for $95 million in outstanding contractor claims,
backcharges, and liquidated damages, and an additional $160 million that was
unfunded, for a total of $255 million. According to Project officials, the
$95 million funded estimate (37 percent) will be sustained in future negotiations or
legal settlements; and the remaining $160 million (63 percent) in unfunded
exposure will not require future funding. While this may be possible, we found
that the Project’s reported historical rate for construction claim settlements was
approximately 50 percent. If the Project settles at the historical rate, claim
settlements will be $127.5 million—$32.5 million higher than the $95 million
budgeted.

According to the FHWA Guidance on revenue shortfall mitigation, a plan is
needed to identify known or potential funding shortfalls. Additionally, it requires
that a plan discuss the mitigation steps that have been taken or will be taken to
address such funding shortfalls, including measures that increase project funding.
Finally, the FHWA Guidance states that budget forecasts should be compared with
actual attained results to provide a historical measure of success.

To comply with the FHWA Guidance, the Plan must disclose the anticipated
source of funds to cover additional costs should claim settlements exceed the
amount budgeted. This can be achieved by disclosing the details of the non-
Federal funding sources that will be made available to cover higher-than-budgeted
                                                                                7


settlement amounts—an additional $32.5 million if contractor claims are settled at
the historical rate.


Commitment to Fund Future Transportation Projects Was Not
Disclosed
Before MTA assumed management authority for the Project, the Commonwealth
committed to certain environmental mitigations as a condition of Project approval.
However, the Plan did not disclose the Commonwealth’s commitment to fund
$750 million in future transit projects.

The FHWA Guidance states that project finance plans should include all costs and
the value of all resources necessary to deliver a project, including the cost of
environmental mitigation. Further, FHWA’s Major Project Program Cost
Estimating Guidance, published in 2004 and revised in 2007, notes that, even if
the environmental enhancement work is not directly related to a project, it must be
disclosed in the project’s finance plan.

In March 2007, the Massachusetts Transportation Finance Commission, which
was established to develop a long-range transportation finance plan for the
Commonwealth, reported four remaining transit projects related to the Project’s
prior environmental commitments. The four transit projects were the Fairmount
Commuter Rail Improvements, design work for the Red Line–Blue Line
Connector, the 1,000 Parking Space Initiative, and the Green Line Extension to
Medford. Although these projects will be funded from Commonwealth resources
rather than from MTA resources, they should be disclosed in the Plan to comply
with FHWA cost estimating guidance and to ensure that stakeholders are informed
of the full value of resources necessary to deliver the Project.


Recent Lawsuit Settlement May Impact the Commonwealth’s Funding
Commitment
The Plan includes $210 million in funding to be provided by the Commonwealth,
subject to certain conditions. In a May 2007 letter agreement, the Commonwealth
and the MTA agreed that the MTA would reimburse the Commonwealth from cost
recoveries and other revenue that the MTA expected to receive. However, based
on a recent lawsuit settlement, the MTA may not be able to meet the condition of
the letter agreement regarding the use of cost recoveries to reimburse the
Commonwealth.

Restriction on Use of Cost Recoveries. A January 23, 2008, settlement of a
lawsuit filed by the U.S. Department of Justice and the Massachusetts Attorney
General’s Office against Bechtel/Parsons Brinkerhoff and other firms requires that
                                                                               8


most of the cost recoveries be held in a new Central Artery/Tunnel Project Repair
and Maintenance Trust Fund. Additionally, the cost recoveries are to be used only
for future non-routine repairs and maintenance of the Project. Thus, these
recoveries may not be available to reimburse the Commonwealth in accordance
with the letter agreement.

The FHWA Guidance requires that the Plan provide a description of how a project
will be implemented over time by identifying project costs and the financial
resources to be used in meeting those costs. The Plan should describe whether the
Commonwealth will advance $210 million in additional funding, as specified in its
letter agreement, even if the MTA is unable to reimburse this amount. Conversely,
the MTA will need to identify an alternative funding source in the event that the
Commonwealth does not agree to advance the funds.

Treasurer’s Assessment Was Not Provided. As noted above, the Plan includes
$210 million in funding to be provided by the Commonwealth, of which
$140 million is from the TIF. However, unlike previous updates, the May 2007
Plan did not provide the Commonwealth Treasurer’s assessment of the TIF
balance and funding projections. At the time the Plan was issued, the Treasurer
was in the process of validating the TIF funding projections, and the assessment
was not available for inclusion in the Plan. If the Commonwealth follows through
with its commitment to advance funds from the TIF, a significant funding source
for the Project, the MTA should include the Treasurer’s assessment in the Plan.

We discussed the preliminary results of our audit and the audit recommendations
with FHWA, Commonwealth, and MTA officials on October 4, October 18, and
November 28, 2007. These officials expressed general agreement. Additionally,
the Commonwealth and the MTA agreed to amend the Plan in accordance with
our recommendations. As of the date of this report, we have not received the
necessary amendments from the Commonwealth and the MTA.


RECOMMENDATIONS
The cost, funding amounts, and disclosures included in the May 2007 Plan must
be adjusted, which also will require updated certifications. These certifications
will confirm that the adjusted amounts and other information presented in the Plan
are accurately and reasonably stated. We recommend that FHWA advise the
Massachusetts Turnpike Authority to amend the Finance Plan to:
                                                                               9


   1. Increase insurance cost by $8.8 million for a total Project cost of
      $14.807 billion.

   2. Reduce the Federal funding cap by $28.9 million to reflect investment
      income earned on Federal funds.

   3. Identify an additional $37.7 million in non-Federal funding to meet the
      shortfall resulting from increasing insurance cost and reducing the Federal
      cap.

   4. Disclose the details of the non-Federal funding sources, totaling at least
      $32.5 million, which will be made available to cover higher-than-budgeted
      settlement amounts.

   5. Disclose the Commonwealth’s prior commitment to fund $750 million in
      future transit projects.

   6. Describe the Commonwealth’s commitment to advance the $210 million in
      State funding, even if the funds are not reimbursed by MTA, or identify
      alternative funding sources.

   7. Provide the Treasurer’s assessment of the current TIF balances and future
      projections needed to complete the Project, if the TIF remains a significant
      funding source.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
In its March 28, 2008, written comments to our draft report, FHWA concurred
with our seven recommendations and provided an action plan to address each of
the recommendations. FHWA’s written comments to our recommendations are
included as an appendix to this report.

FHWA agreed to take the following actions:

 • Recommendation 1, FHWA will notify the appropriate Commonwealth of
   Massachusetts and MTA personnel that this item must be changed before
   FHWA can approve the 2007 CAT Finance Plan Update. This action will be
   completed by April 15, 2008.

 • Recommendation 2, FHWA stated that the Federal funding cap of $8.549
   billion was set in 2000. This $8.549 billion funding ceiling, in the FHWA
   fiscal management information system, has been reduced to $8.444 billion
                                                                            10


   based on the two adjustments of $76 million and $28.9 million. FHWA will
   again notify the appropriate Commonwealth of Massachusetts and MTA
   personnel that this action must be reflected in their 2007 CAT Finance Plan
   Update before it can be approved by FHWA. This action will be completed by
   April 15, 2008.

 • Recommendation 3, FHWA will notify the appropriate Commonwealth of
   Massachusetts and MTA personnel that this item must be changed before
   FHWA can approve the 2007 CAT Finance Plan Update. This action will be
   completed by April 15, 2008.

 • Recommendation 4, FHWA will notify the appropriate Commonwealth of
   Massachusetts and MTA personnel that this item must be changed before
   FHWA can approve the 2007 CAT Finance Plan Update. This action will be
   completed by April 15, 2008.

 • Recommendation 5, FHWA will notify the appropriate Commonwealth of
   Massachusetts and MTA personnel that this item must be changed before
   FHWA can approve the 2007 CAT Finance Plan Update. This action will be
   completed by April 15, 2008.

 • Recommendation 6, FHWA will notify the appropriate Commonwealth of
   Massachusetts and MTA personnel that this item must be changed before
   FHWA can approve the 2007 CAT Finance Plan Update. This action will be
   completed by April 15, 2008.

 • Recommendation 7, FHWA will notify the appropriate Commonwealth of
   Massachusetts and MTA personnel that this item must be changed before
   FHWA can approve the 2007 CAT Finance Plan Update. This action will be
   completed by April 15, 2008.

We consider FHWA’s planned actions to our seven recommendations to be
responsive; and therefore, consider the recommendations to be resolved. We will,
however, continue to monitor the status of FHWA’s implementation of our
recommendations, and the recommendations will remain open until FHWA
completes its proposed actions.

We appreciate the courtesies and cooperation of the FHWA, Commonwealth, and
MTA representatives during this audit. If you have any questions concerning this
report, please call me at (202) 366-5630 or Joseph Marchowsky, Program
Director, at (202) 366-1515.

                                       #
                                                                              11




EXHIBIT A. SCOPE AND METHODOLOGY
To determine whether the Plan complied with the FHWA Guidance, we compared
the Plan with the applicable FHWA requirements. We also reviewed the Plan’s
cost, funding, cash flow, and disclosure statements for Project cost risks. We
relied upon OIG Finance Plan audit work conducted in prior years to identify prior
issues that impacted the 2007 Plan submission.

To evaluate the Plan’s cost estimate, we assessed the Commonwealth and MTA’s
certifications of the cost estimate, analyzed incurred costs and “to-go” cost
estimates, reviewed the independent cost assessments prepared by the Executive
Office of Transportation audit staff, and examined construction claim documents
prepared by the Project and its consultants. We also reviewed prior cost
estimating process reviews conducted by Rubino & McGeehin and Deloitte &
Touche.      As needed, we requested additional disclosures and obtained
supplemental documents and explanations for significant Project cost differences.

To evaluate the Plan’s funding projections, we reviewed the Commonwealth and
MTA’s certifications of Project-related cash flow projections for non-Federal
funding sources, including Commonwealth bonds and other revenue sources. We
also reviewed Commonwealth bonding and TIF financial documents to determine
whether the Plan accurately presented the Project’s cash flow. We interviewed
Commonwealth and MTA officials and reviewed relevant documentation to assess
the Plan’s financing requirements, cash flow, and other relevant factors. We also
reviewed FHWA funding records related to the Project.

Our audit was conducted from April 2007 through February 2008 at the FHWA
Massachusetts Division Office in Cambridge, Massachusetts; the Massachusetts
Turnpike Authority, the Central Artery/Tunnel Project Offices, the
Commonwealth’s Executive Office of Transportation, the Executive Office of
Administration and Finance, and the Department of State Treasurer in Boston,
Massachusetts; and Deloitte & Touche in Philadelphia, Pennsylvania. We
conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




Exhibit A. Scope and Methodology
                                                          12




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.
  Name                                 Title

  Joseph Marchowsky                    Program Director

  Peter Babachicos                     Project Manager

  William Lovett                       Senior Auditor

  Laurence Burke                       Senior Analyst

  P. David McBride                     Analyst

  Harriet E. Lambert                   Writer/Editor

  Jean Diaz                            Writer/Editor




Exhibit B. Major Contributors to This Report
                                                                                              13




        APPENDIX. MANAGEMENT COMMENTS




                                                 Memorandum
Subject:INFORMATION:        Federal Highway Administration               Date:   March 28, 2008
        Response to the Office of Inspector General (OIG) Draft
        Report, “Audit of the Central Artery/Tunnel Project
        May 2007 Finance Plan Update”
From:   James D. Ray                                                     Reply to
        Acting Administrator                                             Attn. of:   HIPA-1

To:     Calvin L. Scovel III
        Inspector General (JA-40)

        Thank you for the opportunity to review and comment on the OIG Draft Report,
        “Audit of the Central Artery/Tunnel (CAT) Project May 2007 Finance Plan Update.”
        FHWA has been coordinating its review of the Finance Plan Update with your office
        and has been working closely with the appropriate Commonwealth of Massachusetts
        and Massachusetts Turnpike Authority (MTA) officials to explain all of the concerns
        of FHWA and the DOT OIG.

        We concur in the OIG’s recommendation that FHWA advise the MTA to amend the
        2007 CAT Finance Plan Update to account for the seven recommendations in your
        draft report. The following information addresses the recommendations and our
        planned actions for these recommendations.

        Recommendation #1: Advise the Massachusetts Turnpike Authority (MTA) to
        amend the Finance Plan Update to increase insurance costs by $8.8 million for a total
        Project cost of $14.807 billion.

        Response: Concur. FHWA will notify the appropriate Commonwealth of
        Massachusetts and MTA personnel that this item must be changed before FHWA can
        approve the 2007 CAT Finance Plan Update. This action will be completed by April
        15, 2008.



        Appendix. Management Comments
                                                                                      14


Recommendation #2: Advise the MTA to amend the Finance Plan Update to reduce
the Federal funding cap by $28.9 million to reflect investment income earned on
Federal funds.

Response: Concur. The Federal funding cap of $8.549 billion was set in 2000. This
$8.549 billion funding ceiling, in the FHWA fiscal management information system,
has been reduced

to $8.444 billion based on the two adjustments of $76 million and $28.9 million.
FHWA will
again notify the appropriate Commonwealth of Massachusetts and MTA personnel
that this action must be reflected in their 2007 CAT Finance Plan Update before it can
be approved by FHWA. This action will be completed by April 15, 2008.

Recommendation #3: Advise the MTA to amend the Finance Plan Update to
identify an additional $37.7 million in non-Federal funding to meet the shortfall
resulting from increasing insurance costs and reducing the Federal cap.

Response: Concur. FHWA will notify the appropriate Commonwealth of
Massachusetts and MTA personnel that this item must be changed before FHWA can
approve the 2007 CAT Finance Plan Update. This action will be completed by April
15, 2008.

Recommendation #4: Advise the MTA to amend the Finance Plan Update to
disclose the details of the non-Federal funding sources, totaling at least $32.5 million,
which will be made available to cover higher-than-budgeted settlement amounts.

Response: Concur. FHWA will notify the appropriate Commonwealth of
Massachusetts and MTA personnel that this item must be changed before FHWA can
approve the 2007 CAT Finance Plan Update. This action will be completed by April
15, 2008.

Recommendation #5: Advise the MTA to amend the Finance Plan Update to
disclose the Commonwealth of Massachusetts’s prior commitment to fund $750
million in future transit projects.

Response: Concur. FHWA will notify the appropriate Commonwealth of
Massachusetts and MTA personnel that this item must be changed before FHWA can
approve the 2007 CAT Finance Plan Update. This action will be completed by April
15, 2008.

Recommendation #6: Advise the MTA to amend the Finance Plan Update to
describe the Commonwealth’s commitment to advance the $210 million in State


Appendix. Management Comments
                                                                                   15


funding, even if the funds are not reimbursed by MTA, or identify alternative funding
sources.

Response: Concur. FHWA will notify the appropriate Commonwealth of
Massachusetts and MTA personnel that this item must be changed before FHWA can
approve the 2007 CAT Finance Plan Update. This action will be completed by April
15, 2008.

Recommendation #7: Advise the MTA to amend the Finance Plan Update to
provide the Treasurer’s assessment of the current Transportation Infrastructure Fund
(TIF) balances and future projections needed to complete the Project, if the TIF
remains a significant funding source.

Response: Concur. FHWA will notify the appropriate Commonwealth of
Massachusetts and MTA personnel that this item must be changed before FHWA can
approve the 2007 CAT Finance Plan Update. This action will be completed by April
15, 2008.

In addition to the seven recommendations, your office requested that FHWA
comment on the reasonableness of the $28.9 million in Federal funds being put to
better use. We have reviewed the basis for the $28.9 million repayment and believe
the dollar amount is appropriate and reasonable. The Commonwealth of
Massachusetts is in agreement with FHWA and has already repaid a portion of the
funds. Total repayment of the funds was completed on March 26, 2008.        As the
monies are returned to FHWA, the funds become available for obligation on Federal-
aid projects in Massachusetts.

We will continue to work closely with the appropriate personnel in the
Commonwealth of Massachusetts, MTA, and your office until we are all able to
approve the 2007 CAT Finance Plan Update. If you have any questions or comments
concerning this response, please contact Carl Gottschall at (202) 366-1561.




Appendix. Management Comments
